No.
In The
Supreme Court of the United States
JOHN M. WASSON
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.
On petition For A writ Of Certiorari
To The United States Court OfAppeals
For the Ninth Circuit
PROOF OF SERVICE
I, JOHN M. WASSON, do swear that on this date, !3 August 2021, as required by Supreme Court
Rule 29 I have served the enclosed MOTION TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI to each party's counsel and every other person required to be served
by depositing an envelope containing the above documents with the USPS properly addressed to each
of them, First Class postage prepaid.
NAME
Solicitor General of the United States

ADDRESS
950 Pennsylvania Ave NW, Room 5614
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on 13 August 2021

JOHN M. WASSON

John M. Wasson
717 W. 27th Ave
Kennewick, WA 99337
503 991-9954
slipperyrocks@outlook.com

Deceived
AUG 2 2 2021
ff£gf.°ECOUaBll

